OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S
PROCUREMENT AND
DISTRIBUTION OF
COMMODITIES FOR THE
PRESIDENT’S EMERGENCY
PLAN FOR AIDS RELIEF

AUDIT REPORT NO. 1-521-09-001-P
OCTOBER 16, 2008




SAN SALVADOR, EL SALVADOR
                          Office of Inspector General




       October 16, 2008


       MEMORANDUM

       TO:                  USAID/Haiti Director, Beth Cypser

       FROM:                RIG/San Salvador, Timothy E. Cox /s/

       SUBJECT:             Audit of USAID/Haiti’s Procurement and Distribution of Commodities for
                            the President’s Emergency Plan for AIDS Relief (Report No. 1-521-09-
                            001-P)

       This memorandum transmits our final report on the subject audit. We have carefully
       considered your comments on the draft report in finalizing the audit report and have
       included your response in appendix II of the report.

       The report contains eight recommendations intended to improve accountability and
       implementation of the President’s Emergency Plan for AIDS Relief activities.
       Management decisions have been reached for Recommendation Nos. 1, 2, 3, 4, 5, 6,
       and 7, and final action has been taken on Recommendation Nos. 1, 3, and 6.
       M/CFO/APC will record final action on the other recommendations when planned actions
       have been completed.

       A management decision on Recommendation No. 8 can be reached once USAID/Haiti
       establishes an internal policy requiring estimates for loans of PEPFAR commodities be
       reported in the budgets as well as actual loans and repayments to stakeholders in
       Washington. Please advise my office within 30 days of any further actions planned or
       taken to reach management decision on this recommendation.

       I want to express my appreciation for the cooperation and courtesy extended to my staff
       during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit, 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 5

Has USAID/Haiti procured, deployed, and warehoused its PEPFAR
commodities to help ensure that intended results were achieved, and
what has been the impact? ............................................................................................... 5

     Need Better Storage Facilities for Commodities
     Requiring Cold Storage............................................................................................... 7

     Smoke Detectors Needed in the Central Warehouse of
     the Partnership............................................................................................................ 9

     Need to Reduce Amount of Expired Commodities...................................................... 9

     The Lack of Consistent and Dependable Power Supplies in Haiti Is a
     Major Concern........................................................................................................... 11

     Oraquick Test Kits Need to Be Procured and Deployed More
     Efficiently................................................................................................................... 12

     The Program Needs a Performance Monitoring Plan ............................................... 13

     PEPFAR Should Formalize Its System for Loaning and/or Donating
     Commodities to the Global Fund............................................................................... 14

Evaluation of Management Comments ....................................................................... 16

Appendix I – Scope and Methodology ........................................................................ 17

Appendix II – Management Comments ....................................................................... 19

Appendix III – Storage Conditions Tested .................................................................. 26
SUMMARY OF RESULTS
President Bush made a five-year, $15 billion commitment in the fight against HIV/AIDS
in his 2003 State of the Union address. The President’s Emergency Plan for AIDS Relief
(PEPFAR) focuses $10 billion on 15 countries, including Haiti, for treatment, prevention,
and care. A request to reauthorize PEPFAR for another five-years is being considered
in Congress. Haiti is the most affected nation in the Caribbean, with 3.8 percent of
adults living with HIV. Haiti received over $28 million in PEPFAR funds in fiscal year
2004. Funding for the fight against HIV/AIDS has progressively increased with $78.3
million of funding in FY 2007 and an allocation of $90.6 million for FY 2008 (page 3).

The Regional Inspector General/San Salvador performed this audit to determine whether
USAID/Haiti procured, deployed, and warehoused its PEPFAR commodities to help
ensure that intended results were achieved, and to determine the impact of these efforts
(page 3). 1

On the whole, USAID/Haiti procured, deployed, and warehoused its PEPFAR
commodities to help ensure intended results were achieved. USAID efforts had a
substantial impact by testing 310,900 individuals for HIV, exceeding the target for FY
2007, and by contributing to 12,900 individuals receiving antiretroviral therapy.
Antiretroviral therapy allows those living with HIV/AIDS to live longer, healthier lives
(page 5).

However, USAID/Haiti needs to strengthen the program by (1) moving commodities
requiring cold storage to a new warehouse (page 7), (2) ensuring the new warehouse
has all the proper fire safety items (page 9), (3) reducing the amount of expired
commodities (page 9), (4) working to mitigate the effect of irregular electricity supply
(page 11), (5) improving the procurement of Oraquick test kits (page 12), (6) finalizing
and implementing a performance monitoring plan for the Partnership for Supply Chain
Management (page 13), and (7) formalizing arrangements for loaning and donating
commodities to the Global Fund (page 14).

This report recommends that USAID/Haiti:

•     In coordination with the Partnership for Supply Chain Management, develop an
      action plan listing specific tasks and timeframes, to move the commodities to the new
      central warehouse (page 9).

•     In coordination with the Partnership for Supply Chain Management, install the
      necessary fire safety items at the central warehouse (page 9).

•     Develop an action plan, in coordination with its partners, to improve the forecasting
      method in order to lessen the amount of expired commodities (page 11).


1
    For purposes of this audit, PEPFAR commodities are defined as products purchased with
    PEPFAR funding for the detection and treatment of HIV/AIDS, including antiretroviral drugs,
    test kits, lab equipment, lab supplies, and other essential drugs and medicines used to prevent
    and treat HIV/AIDS-related opportunistic infections.


                                                                                                 1
•   Destroy expired products in a timely manner (page 11).

•   In coordination with its partners, develop an action plan to improve the supply
    pipeline specifically with regard to Oraquick, or another confirmatory test not
    requiring cold storage, in order to lessen the amount of stock outs for this product
    (page 13).

•   In coordination with the Partnership, develop an action plan listing specific tasks and
    timeframes, to finalize and implement a performance monitoring plan for the
    PEPFAR program in Haiti (page 14).

•   Revise its memorandum of understanding with the Global Fund to spell out the
    conditions and responsibility of each party for loans and donations of commodities
    (page 15).

•   Establish an internal policy that requires estimates for loans of PEPFAR program
    commodities be reported in the budgets and the actual loans and repayments to
    stakeholders in Washington (page 15).

USAID/Haiti agreed to implement the recommendations and has developed specific plans
to address seven of the eight recommendations. Management decisions have been
reached on seven recommendations and a management decision can be reached on the
other one when an internal policy is established on how to inform stakeholders in
Washington about loans of PEPFAR commodities. Our evaluation of management
comments is provided in the Evaluation of Management Comments section of this report
(page 16), and USAID/Haiti’s comments in their entirety are included in Appendix II.




                                                                                         2
BACKGROUND
During his State of the Union address in January 2003, President Bush announced the
President’s Emergency Plan for AIDS Relief (PEPFAR). A five-year, $15 billion
commitment was made for the fight against HIV/AIDS. Of this amount, $10 billion is
destined for 15 focus countries, including Haiti. The money supports 1) treatment for
HIV-infected people, 2) prevention of new HIV infections, and 3) care for people infected
and affected by HIV/AIDS.        In addition, the U.S. Congress is deliberating on
reauthorizing PEPFAR by as much as $41 billion over five more years.

Haiti received more than $28 million in PEPFAR funding in fiscal year 2004, nearly $51.8
million in FY 2005, approximately $55.6 million in FY 2006, $84.7 million in FY 2007, and
$100 million was planned for FY 2008. Haiti is the most affected nation in the Caribbean
when it comes to HIV/AIDS, with 3.8 percent of the 15 to 49 year olds living with HIV by
the end of 2005. In 2006, the United Nations estimated that approximately 180,000
Haitian adults aged 15 and older and 10,000 children were living with HIV/AIDS. The
Government of Haiti estimated 26,776 individuals needing antiretroviral (ARV) therapy
during 2008.

The U.S. Government PEPFAR team 2 in Haiti works with more than 10 partners to
support the national HIV/AIDS care and treatment program. The PEPFAR team works
with a network of public, private, and faith-based health facilities to provide free ARV
therapy services for all Haitians. In September 2005, the Partnership for Supply Chain
Management (the Partnership) signed a task order for $18 million with the Management
Sciences for Health (MSH), and has progressively taken over the procurement of
commodities for the care and treatment of HIV/AIDS and related infections. The
Partnership signed a second task order in April 2007 for an additional $5 million. The
Partnership provides ARV drugs to 5 sites, opportunistic infections (OI) 3 drugs to 10
sites, and test kits to 27 sites in Haiti. Moreover, MSH provides comprehensive
technical assistance to health facilities through a separate three-year, $42.5 million
contract, of which $10 million is meant for HIV-related activities.

In addition, the Global Fund 4 provides HIV/AIDS commodities, including ARV drugs, to
health facilities through the local Fondation Sogebank.

AUDIT OBJECTIVE
As part of a worldwide audit directed by the Office of Inspector General’s Performance
Audits Division, the Regional Inspector General/San Salvador audited USAID/Haiti’s

2
    The team includes USAID, the Center for Disease Control (CDC), and the Department of State.
3
    Opportunistic infections are illnesses caused by various organisms, some of which usually do
    not cause disease in persons with normal immune systems. Persons living with advanced HIV
    infection suffer opportunistic infections of the lungs, brain, eyes, and other organs.
4
    The Global Fund to Fight Aids, Tuberculosis, and Malaria was created in 2002 after a
    commitment by the United Nations to create such a fund was endorsed by the Group of Eight
    (G8) countries in Genoa a year earlier. The G8 then helped finance the Global Fund and as of
    May 2007 $7.6 billion had been committed by 136 countries. The Global Fund does not
    implement programs directly, but rather relies on local expertise.


                                                                                              3
PEPFAR activities related to commodities to answer the following question:
   •   Has USAID/Haiti procured, deployed, and warehoused its PEPFAR commodities to
       help ensure that intended results were achieved, and what has been the impact?

The audit scope and methodology are described in Appendix I.




                                                                                   4
AUDIT FINDINGS
In general, USAID/Haiti, through the Partnership for Supply Chain Management
(Partnership), procured, deployed, and warehoused its President’s Emergency Plan for
AIDS Relief (PEPFAR) commodities to help ensure that intended results were achieved.
In addition, the PEPFAR program in Haiti has had a substantial impact on the number of
individuals tested for HIV/AIDS and the number of individuals on antiretroviral (ARV)
therapy. The paragraphs below answer the audit objective more fully and describe the
impact of the program’s efforts. They are followed by findings describing opportunities to
strengthen the program.

Procurement – USAID/Haiti, through the Partnership, generally procured commodities
as planned to ensure that commodities were available when needed in the country. With
the exception of a few limited cases, the Partnership reported no stock outs of ARV
drugs in FY 2007. This information was confirmed through visits and interviews at four
sites that receive ARVs from the Partnership. Although certain HIV test kits were
procured as needed, stock outs of the Oraquick test kits occurred at two sites and
officials at three others said that more Oraquick would help them to provide more testing




Photograph of CD4 equipment donated by         Photo taken by an OIG auditor on June 2, 2008 at Fort
PEPFAR at the Grace Children Hospital, Port-   Liberté   Hospital’s   pharmacy     with    PEPFAR
au-Prince, Haiti, taken by an OIG auditor on   commodities, in Cap-Haitien, Haiti.
May 29, 2008.




                                                                                                 5
services in remote areas. See the related finding below. Stock outs of CD4 reagents 5
have also been experienced by two sites.

Deployment – Commodities were deployed first to central warehouses in Port-au-
Prince, Haiti and then were delivered to hospitals or other health facilities. The clinics
and hospitals we visited used ARV drugs and HIV test kits commodities for HIV/AIDS
patient care.

As stated above, ARV drugs were almost always available and at least one of the HIV
test kit types were also usually available (as noted above, the Oraquick test kit was not
always available or was sometimes received with under two months of shelf life
remaining). At the health facilities visited, laboratory equipment provided by the
PEPFAR program was in place and was generally operating as intended, making HIV
testing more readily available.

Warehousing – Most commodities were transferred to the new Partnership central
warehouse in Port-au-Prince in May 2008. In visiting the new central warehouse and
nine storage sites at the nine health facilities visited, storage conditions generally met
the standards set by Haiti’s Ministry of Health and by the World Health Organization.
See appendix III for the storage conditions tested.




Photo of the Partnership’s new central              The new Partnership central warehouse is being
warehouse taken by an OIG auditor in Port-au-       used to promote the efficient and secure storage
Prince, on May 29, 2008.                            of PEPFAR commodities. Photo taken by an OIG
                                                    auditor on May 29, 2008.


In testing the inventory records at these same sites, very few discrepancies were noted.
However, storage conditions for commodities (certain ARV drugs, HIV test kits,
reagents) needing refrigeration were not always adequate and power was not available
24 hours a day at four sites visited. See related findings below.

Impact – The PEPFAR program’s efforts in procuring, deploying, and warehousing its
commodities have had a positive impact in Haiti. Although the Office of the Global AIDS
Coordinator has not established any required indicators related to the procurement,
deployment, or warehousing of commodities, two related indicators are the number of

5
    Also known as T4 cell, CD4s are one of several types of T-cells important to the immune
    response. They protect against viral, fungal, and protozoal infections and are the cells that are
    most susceptible to HIV. They serve as the indicator for patients developing opportunistic
    infections and are used to judge when antiretroviral therapy should begin. Reagents are used
    in the testing to determine CD4 counts.


                                                                                                   6
individuals tested for HIV and the number of individuals on ARV therapy. The program
was able to exceed the FY 2007 target of 300,000 for number of people tested for
HIV/AIDS, an important achievement in a country where a stigma with regard to
HIV/AIDS remains strong. The 310,900 tested in FY 2007 was followed by a strong
showing thus far in 2008. PEPFAR has already tested 238,874 individuals as of March
2008 and expects to surpass the 330,000 target.

The PEPFAR program has also substantially increased the number of individuals on
ARV therapy—an important indicator because ARV therapy allows those living with
HIV/AIDS to live longer and healthier lives. It should be noted that the PEPFAR targets
and results for this indicator include the results for both the PEPFAR program and the
Global Fund program as both provide ARV therapy (commodities and/or technical
assistance) for the country as a whole. For example, the number of individuals on ARV
therapy increased from 2,829 in 2004 to 12,900 by September 30, 2007 and to 14,918
individuals as of March 31, 2008. The 12,900 was short of the 15,000 target by the end
of FY 2007. According to mission officials, the target was provided by the Office of the
U.S. Global AIDS Coordinator (OGAC) 6 and was based on the estimated HIV
prevalence rate in the country of 3.8 percent by the United Nations in 2006. Other data
suggests that the actual prevalence rate may be more in the range of 2.2 percent.
Mission officials explained that the program has less control over this indicator as it does
not precisely know how many individuals need to be tested to obtain a certain number of
individuals infected with HIV. Mission officials also believe that it is unlikely that the FY
2008 target of 20,000 people on ARV therapy will be achieved.

Another important aspect of the program is the ability to provide services in remote
regions as well as in large cities. This was made clear by an audit site visit to Pignon. It
takes three hours to get to Pignon by car from the Northwest coastal city of Cap-Haitien.
The road is a very rough dirt road and two rivers needed to be crossed by car. Clearly,
providing testing and then ARV and Opportunistic Infections (OI) drugs to this remote
area is something to be commended.

Despite the progress and achievements made by the program thus far, several issues
need management attention as discussed below.

Need Better Storage Facilities for
Commodities Requiring Cold Storage
Summary: The World Health Organization’s storage protocols specify that commodities are
to be stored in an area secured by lock and key. The area should also be restricted to
authorized personnel only. Although most of the commodities are now stored in a new
warehouse, those requiring cold storage are kept in different parts of the Partnership’s office
such as the kitchen. These areas do not constitute proper storage areas as they are not
secured by lock and key in store rooms with restricted access and may not have the
electrical capacity to handle the ten refrigerators in use. These commodities have not been
moved to the warehouse because a condenser needed for cold storage did not arrive as

6
    The Office of the U.S. Global AIDS Coordinator’s mission is to lead implementation of the U.S.
    President’s Emergency Plan for AIDS Relief (PEPFAR). The Coordinator leads the U.S.
    Government’s (USG) international HIV/AIDS efforts and ensures coordination among the
    relevant USG agencies.


                                                                                                7
ordered. Until these commodities are moved to a proper storage facility, the potential for
loss or theft exists. In fact, an electrical fire at the Partnership’s offices in March 2008
caused $10,000 worth of damage to commodities.

According to the storage protocols from the World Health Organization, commodities
should be stored properly in a clean and secured area including a lock and key. Access
to the area should be restricted to authorized personnel and have adequate air
conditioning.

While a central warehouse was opened up in May 2008 and contains most of the
commodities being procured by the Partnership, commodities requiring cold storage are
being kept in the Partnership’s offices in Petion-Ville. The commodities (certain ARV
drugs, HIV test kits, etc.) are in freezers at the proper temperature; however, the offices
are not a proper storage facility as some are in the kitchen and at various other locations
within the offices. The commodities are not secured in locked storage rooms or in areas
restricted to only authorized storage handlers. Furthermore, the office’s wiring has not
been checked to determine if it is adequate to handle the electricity demands of the ten
refrigerators in place. The commodities that have been moved to the central warehouse
are tracked by a sophisticated inventory computer system, while the inventory records
for items kept in the offices in the Partnership are rudimentary. As of May 2008,
commodities costing $367,355 were stored at the offices. These commodities are stored
at the offices until they are distributed as necessary to the various health facilities
throughout Haiti.




Two photographs of OIG auditors conducting a review of PEPFAR commodities stored at the office
of one of the main partners in Port-au-Prince. Photographs taken by an OIG auditor on May 28, 2008.

The Partnership planned to move commodities to the new central warehouse that has
been configured to adequately store commodities needing cold storage. However, when
the cold storage container arrived, the condensing unit needed for cold storage was not
included. After both the shipper and receiver claimed they were not at fault, the
Partnership ordered another condensing unit in April and is still awaiting delivery.

Under the current storage conditions, the commodities are susceptible to loss and theft.
In fact, due to the weak electrical system in the Partnership offices, a fire broke out in
March 2008. As a result, some commodities including laboratory test kits and OI drugs
totaling about $10,000 were damaged. Unfortunately, the risk of this is still present and
will continue to be so until the condenser arrives and these items are moved to the
central warehouse.


                                                                                                 8
   Recommendation No. 1: We recommend that USAID/Haiti, in coordination with
   the Partnership for Supply Chain Management, develop an action plan, listing
   specific tasks and timeframes, to move the commodities to the new central
   warehouse.

Smoke Detectors Needed in the
Central Warehouse of the Partnership
Summary: The World Health Organization’s storage protocols include the need for fire
security. Fire safety equipment is to be available and staff at storage facilities should know
what to do in case of fire. The new central warehouse used by the Partnership is lacking
smoke detectors and posters indicating what should be done in the event of a fire. The
warehouse has just become operational and staff stated that smoke detectors and posters
ordered have yet to arrive. Until these are installed there is a risk that a fire may not be
immediately detected and properly contained. Therefore, the commodities currently in the
warehouse are at risk.

According to storage protocols by the World Health Organization, fire security is an
important part of any warehouse. Warehouse staff should be aware of what is to be
done in case of a fire and fire safety equipment should be available.

While the warehouse that the Partnership has recently inaugurated is impressive, with
high ceilings, security, proper temperature, and sufficient size, two other important items
are needed with regards to fire security. Smoke detectors were not present and no
posters describing how to react in case of a fire were present. Commodities stored
include ARV drugs, HIV test kits, OI drugs, and other commodities total $3,759,166.

The warehouse has just recently been opened and staff stated that smoke detectors and
posters that have been ordered but have yet to arrive.

The potential effect of not having smoke detectors or posters indicating what should be
done in the event of a fire is that a fire would not be properly or quickly contained leading
to damage of the warehouse as well as the commodities inside. This is made all the
more clear as a fire has already occurred in the Partnership’s offices that did indeed
cause some damage, although the presence of mind of the guard on duty minimized the
degree of damage. However, smoke detectors and guidance on what should be done is
imperative.

   Recommendation No. 2: We recommend that USAID/Haiti, in coordination with
   the Partnership for Supply Chain Management, install the necessary fire safety
   items at the central warehouse.

Need to Reduce Amount of Expired Commodities
Summary: The Partnership’s guidelines recommend a monthly order cycle for short shelf-
life commodities and a mechanism allowing health facilities to quickly return products to the
central warehouse for redistribution prior to expiry. Expired products should also be
destroyed in a timely manner. The central warehouse currently has a large amount of



                                                                                            9
expired commodities with a total cost of $313,443. Most of these have been stored for over
two years and take up a good part of the warehouse. Commodities also expired at four of
the nine sites visited. Most of the expired commodities at the central warehouse were
inherited by the Partnership. In addition, the program needs an improved forecasting
system for supplying sites that would allow for minimal expiration of products. The
expired product has not been destroyed timely due to the limited availabity of an
incinerator. Expired products represent a loss of resources that otherwise would have
been used to achieve program objectives. The expired product is also taking up valuable
storage space and there is a risk that the product could be inadvertently given to patients.

The program should minimize the amount of expired product. Also, expired product
should be destroyed in a timely fashion. John Snow, Inc., a principal partner of the
Partnership, prepared a document called Guidelines For Managing The HIV/AIDS
Supply Chain. The guidelines state that due to the short-shelf life of ARV drugs and HIV
test kits (from 6 to 24 months), the high prices involved, and the requirement of multiple
products from multiple sources, the supply chain will differ from that of other
commodities. Specifically, a monthly order cycle is recommended so that a smaller
buffer zone will lead to less expired product but also allow for less stock outs. Another
recommendation is to develop a mechanism for returning products to the central
warehouse for rapid redistribution before expiry. In general, the quantification or
forecasting system in place should be specifically tailored to PEPFAR commodities.

The program currently has a lot of expired product at the central warehouse. The
expired product include various ARV drugs, HIV test kits, OI drugs, and other
commodities with a total cost of about $313,443. Much of the expired product has been
stored for quite some time and a good portion of the central warehouse is taken up by
this expired product. In addition, four of the nine sites visited said that expiration of
products took place. Three dealt with ARV drugs while the other was involving the
Oraquick test kit. The Partnership currently supplies the sites on a quarterly basis.
However, as they get monthly reports on usage and the number of patients at each
facility, they have also begun to send some supplies monthly when needed.

When the Partnership took over from the previous contractor in the Spring of 2006, they
found a large supply of commodities that exceeded demand. According to the
Partnership, the expired product is left over from the previous implementing partner’s
procurement. This is part of the reason so many expired commodities are in the main
warehouse. However, the underlying reason is weak forecasting of demand. The
Partnership acknowledged that the quantification system (the system used for
forecasting commodity demand) is being reviewed in order to improve the supply chain,
including moving from a “push” system to a “pull” system. With a push system, those
issuing the supplies decide what to send and how much. On the other hand, a pull
system allows for those receiving the supplies to decide when to request supplies.
However, a pull system requires well-trained staff at lower levels as well as the
availability of appropriate technology. Currently, the Partnership uses the reports on
drug usage and the number of HIV/AIDS patients to determine how much to supply a
site.

In addition to not being a high priority, expired product was not destroyed timely because
the Ministry of Health does not have an adequate incinerator for such a large quantity.
Recenty, the Partnership has ordered an incinerator which would speed up the
destruction.


                                                                                         10
Photographs taken by an OIG auditor on May 29, 2008 showing lots of expired products at the new
Partnership central warehouse, Port-au-Prince, Haiti.

Consequently, expired commodities represent a $313,443 loss of resources that could
have been used to advance program objectives. In addition, these commodities require
further cash outlay in order to be properly destroyed. In the meantime, the expired
product is taking up valuable storage space in the central warehouse and there is a risk
that the product could be inadvertently given to patients.

   Recommendation No. 3: We recommend that USAID/Haiti develop an action
   plan, in coordination with its partners, to improve the forecasting method in order
   to lessen the amount of expired commodities.

   Recommendation No. 4: We recommend that USAID/Haiti destroy expired
   products in a timely manner.

The Lack of Consistent and Dependable Power
Supplies in Haiti is a Major Concern
Summary: Most HIV/AIDS commodities are to be stored at a temperature of no more than
27 degrees Celsius or 80 degrees Fahrenheit and some require refrigeration not to exceed 8
degrees Celsius or 46 degrees Fahrenheit. At the nine storage facilities visited, four sites
were found to not have a consistent power supply 24 hours a day, with two stating that
power is shut off during the evening. A recent assessment found that the availability of
power at health facilities in Haiti is a weakness. The poor power grid in Haiti and the rising
cost of energy are the main reasons that power is not available 24 hours a day at health
facilities. HIV/AIDS commodities not stored at the proper temperature could lessen the
effectiveness of the drugs and the accuracy of the tests.

According to manufacturer requirements, ARVs, OI drugs, and test kits all have to be
stored at a temperature not to exceed 27 degrees Celsius or 80 degrees Fahrenheit.
The test kits Capillus, certain reagents, and ARVs like Ritonavir require cold storage and
temperatures no more than 8 degrees Celsius, or 46 degrees Fahrenheit.

While temperatures at the nine storage facilities visited during normal working hours
were within acceptable limits, staff at four sites said that power was not often available at
night. For example, staff at two sites stated that the generator and other backups are


                                                                                           11
turned off in the evening, staff at one site said that power is not available 24 hours a day,
and staff at another said that power is not available for about 9 hours a day. A previous
assessment 7 concluded that power is a weakness at health facilities in Haiti. Also, the
assessment found that some backup batteries were not properly installed. Other tests
by CDC showed temperatures 40 degrees Celcius, or 104 degrees Farehneit at times in
the labs.

This occurred due to the poor power grid in Haiti that makes power outages a daily
occurrence. In extreme cases, some sites do not even have access to electricity at all
and rely solely on generators, propane gas, and batteries. In addition, the rising cost of
energy was another reason cited by staff at hospitals for the reason that electricity is not
provided after working hours.

Without the needed energy to control the rise of temperature, the commodities may
spoil, the HIV drugs may not be effective, and the test kits may not provide accurate
readings.

The mission has begun to address this problem by providing energy assistance
(batteries, refrigerators run both on electricity and propane gas, etc.) and entering into
an agreement in FY 2008 that will focus on the energy needs. Planned funds total
$790,000 for this energy solutions activity. The funds will be used to address
recommendations that came out of an assessment of the ARV sites that was carried out
in November 2007. As the mission is taking action to address this important but difficult
issue of continuous energy supply, we are not making any recommendations.

Oraquick Test Kits Need to Be
Procured and Deployed More Efficiently
Summary: The Partnership’s guidelines state that due to the short shelf-life of ARV drugs
and test kits (including Oraquick), the supply chain for these products needs to be more
efficient. However, stock outs of Oraquick, a confirmatory test for HIV/AIDS, have taken
place and at other times have arrived at sites with only a month and a half left before expiry.
While the short shelf life is a cause for the stock outs, the fact that it is only manufactured in
Thailand and is routed to Miami before going to Haiti are also important factors of the supply
chain. The stock outs mean that Capillus test kits are used instead as they have a longer
shelf life. However, Capillus requires refrigeration and lack of continuous power at some
sites makes this less reliable. The refrigeration needed also makes mobile testing in remote
areas more difficult.

The program should minimize the amount of stock outs and expired products. John
Snow Inc. prepared a document called Guidelines For Managing The HIV/AIDS Supply
Chain. The guidelines state that due to the short-shelf life of ARV drugs and HIV test
kits (from 6 to 24 months) and the high prices involved, the supply chain will differ from
that of other commodities. As Oraquick has the shortest shelf life of six months, the
supply chain for this product needs to be more efficient relative to others.


7
    See “Powering Health, Options for Improving Energy Services at Health Facilities in Haiti,”
    issued on January 8, 2008 by the Office of Infrastructure and Engineering – Energy Team,
    USAID and the Institute of International Education.


                                                                                               12
Stock outs of Oraquick, a confirmatory test for HIV/AIDS, have taken place and at other
times they have arrived to the sites with only a month and a half left before expiry. Two
of nine sites visited said they have had stock outs of Oraquick while three other sites
stated they wished to have more Oraquick delivered to provide more testing services in
remote areas. Partnership officials have acknowledged that procuring Oraquick is
problematic and that stock outs have occurred.

Stock outs of Oraquick occurred due to the short-shelf life of six months and the fact that
the product is only manufactured in Thailand. Furthermore, the product arrives in Miami
before it is shipped to Haiti.

These stock outs mean that sites have to rely on Capillus test kits more as they have a
longer shelf life. However, Capillus requires cold storage and the lack of continuous
energy at certain sites makes using Capillus less reliable. In addition, some sites wish to
have Oraquick in order to perform tests when they go to the surrounding area for mobile
testing.

   Recommendation No. 5: We recommend that USAID/Haiti, in coordination with
   its partners, develop an action plan to improve the supply pipeline specifically
   with regard to Oraquick, or another confirmatory test not requiring cold storage,
   in order to lessen the amount of stock outs for this product.

The Program Needs a Performance Monitoring Plan

Summary: Operating units are responsible for setting up systems that measure progress
achieved. The contract with the Partnership also states that a Performance Monitoring and
Evaluation Plan (PMP) is to be prepared. A PMP is in draft form but has yet to be
finalized two years after the task order was signed. The reason for the delay was the
great need in spring 2006 to hit the ground running and provide the required
commodities. Until a PMP is implemented, it is difficult to measure the Partnership’s
performance and identify aspects to be improved.

According to ADS 203.3.2, operating units are responsible for establishing systems to
measure progress towards intended objectives. Also, the contract with the Partnership
states the contractor shall provide a Performance Monitoring and Evaluation Plan (PMP)
for the basic contract and each task order.

USAID/Haiti and the Partnership in Haiti have yet to finalize a PMP although the
Partnership in Haiti started over two years ago. A person from the Partnership in
Washington, D.C. visited Haiti in April 2008 and prepared a draft PMP. This draft PMP
includes 15 indicators that would measure the effectiveness and efficiency of the
procurement, storage, and delivery systems. For example, the draft PMP includes
indicators for the amount of stock outs experienced and the total value of stock loss.

Partnership officials said that, while it would have been better to develop the PMP at the
time they took over in the spring of 2006, the priority then was to simply get into the work
of procuring, storing, and delivering the commodities. Partnership officials also stated
that they do not have a monitoring and evaluation person in Haiti, but they are in the
process of hiring one.



                                                                                         13
A PMP is needed to measure the effectiveness and efficiency of the program’s
procurement, storage, and delivery systems and to identify problems timely so that they
can be corrected.

     Recommendation No. 6: We recommend that USAID/Haiti, in coordination with
     the Partnership for Supply Chain Management, develop an action plan listing
     specific tasks and timeframes, to finalize and implement a performance
     monitoring plan for the PEPFAR program in Haiti.

PEPFAR Should Formalize Its System for Loaning
and/or Donating Commodities to the Global Fund

Summary: A memorandum of understanding is needed for the mission to loan United
States Government-financed commodities to other institutions to enumerate the rules
under which such loans can occur. USAID loaned commodities in the amount of
$246,505 to the Global Fund, and donated $18,116 of commodities as well. However,
the current memorandum of understanding signed by USAID and the Global Fund does
not explicitly allow for such loans or specify norms under which this would take place.
Furthermore, these loans are not explained in the annual and semi annual reporting to
the Office of the U.S. Global AIDS Coordinator (OGAC) or in the Country Operational
Plans (COPs). 8 These loans were made as the Global Fund was not always able to
procure commodities on time and because the Partnership had an oversupply of
commodities. Under the current circumstances, loans may not be settled in a timely
manner and disagreements may occur. Also, PEPFAR has been budgeting for
procurements not meant to meet PEPFAR demand in the amounts of approximately
$250,000 for both FY 2007 and FY 2008.

In order for the mission to loan commodities financed by the United States Government
to other institutions, a memorandum of understanding should allow for this and describe
the norms and rules under which such loans can take place. Reported budgeted,
obligated, and expended amounts should reflect expected costs for future activities and
actual costs of past activities.

The mission has loaned ARV drugs to the Global Fund in Haiti on nine occasions from
June 2006 to October 2007, totaling $246,505. The Global Fund also provides
HIV/AIDS commodities in Haiti through the local Fondation Sogebank.             The
memorandum of understanding in place between Fondation SOGEBANK, Global Fund,
PEPFAR, USAID, and CDC mentions the importance of coordination with regards to the
procurement of commodities. However, it makes no allowance for loans. Between
August 2006 and March 2007, USAID also donated PEPFAR commodities totaling
$18,116 on four separate occasions.

The mission does have a letter for each loan and donation signed by both the mission
and the recipient of the loan, but it does not indicate when the loan is to be repaid.
Instead, the letters state that this will be determined later. Although some commodities

8
    Funding levels for focus countries are allocated on the basis of five-year strategic country
    plans, and funds are released upon approval of annual country operational plans by the U.S.
    Global AIDS Coordinator.


                                                                                             14
have been received to settle previous loans, ARV drug loans of 6,850 units have been
outstanding for 8 months, 9,248 units loaned have been outstanding for over 1 year, and
610 units have been outstanding for 14 months. Furthermore, the letters do not include
other responsibilities and terms of the loans such as required storage conditions for the
commodities, which party will pay to transport the commodities, etc. The mission has
also not accounted for these loans in its accounting records or in the semi annual or
annual reporting of results, although it has been estimating a Global Fund shortfall in the
planning stage and then increasing the estimated commodities to be purchased by this
estimate. The COPs do not explicitly mention this increase either.

Commodities were loaned or donated when the Global Fund and its health facilities
needed commodities. The PEPFAR program also loaned or donated commodities when
it had excess commodities. The loans were done as a way to ensure that demand for
HIV/AIDS commodities did not go unmet. Mission officials believed that the letters were
sufficient in documenting the loans. Also, they mentioned that the lack of reporting or
explicit mention of these loans in the reporting to OGAC is due to the often limited space
allowed for such comments in the COPs, semi annual reports, and annual reports.

As a result, the PEPFAR program may not receive commodities back in a reasonable
period of time. Also, disagreements between the parties may occur and expectations
(e.g., regarding adequate storage, etc.) may not be met. The PEPFAR program has
budgeted and then procured a portion of ARV drugs and other commodities that was not
intended to meet PEPFAR demand but rather to anticipate a potential need on the part
of Global Fund. The COPs for FY 2007 and FY 2008 both include a buffer of 10 percent
totaling approximately $250,000 for each year. In fact, OGAC questioned why the
budget had decreased in 2008. This was due to repayments of commodities by the
Global Fund in 2007 that decreased the required procurement for FY 2008.

   Recommendation No. 7:            We recommend that USAID/Haiti revise its
   memorandum of understanding with the Global Fund to spell out the conditions
   and responsibilities of each party for loans and donations of commodities.

   Recommendation No. 8: We recommend that USAID/Haiti establish an internal
   policy that requires that estimates for loans of PEPFAR program commodities be
   reported in the budgets and the actual loans and repayments to stakeholders in
   Washington.




                                                                                        15
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Haiti agreed to implement the recommendations
and has developed specific plans to address Recommendation Nos. 1, 2, 3, 4, 5, 6, and
7. For instance, with regard to Recommendation No. 1, the mission stated that a
condensing unit has arrived in Haiti and specific dates for installation and then transfer of
the cold chain commodities to the central warehouse have been set. In addition, a
complete physical inventory will be done prior to this transfer. Another example is
Recommendation No. 4, as the mission indicated that an incinerator was received and a
date has been set to begin destroying expired products. The mission has also planned
to use other methods such as cement mix for liquid formulation and burial. A
management decision has been reached on Recommendation Nos. 1, 2, 3, 4, 5, 6, and
7.

In response to Recommendation No. 8, the mission stated that a 10 percent buffer will
continue to be added to procurement estimates due to potential Global Fund shortages.
The percentage will decrease as the Haitian national system matures. However, it is
unclear if this 10 percent will be communicated to stakeholders in Washington as an
amount for loans to other entities. The mission’s response also explains how the loans
are tracked, but does not address how actual loans and status of repayments will also
be communicated to stakeholders in Washington. Therefore, a management decision is
pending.

Mission comments in their entirety are presented in Appendix II.




                                                                                          16
                                                                             APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted government auditing standards to determine if
USAID/Haiti procured, deployed, and warehoused its PEPFAR commodities to help ensure
that intended results were achieved, and what the impact has been. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Audit fieldwork was conducted at
USAID/Haiti from May 27 through June 13, 2008. The audit primarily covered the period
from October 1, 2006 through June 13, 2008.

The scope of the audit was limited to testing commodities procured through the
Partnership for Supply Chain Management. Since fiscal year 2006, the Partnership has
been USAID/Haiti’s primary implementing partner procuring PEPFAR commodities and
according to USAID/Haiti is now the only one.

In planning and performing the audit, we assessed the effectiveness of management
controls related to the procurement, storage, and distribution of PEPFAR commodities.
Specifically, we obtained an understanding and evaluated (1) the Country Operational
Plan (COP) for FY 2006, FY 2007, and FY 2008 (2) the mission’s Federal Managers’
Financial Integrity Act of 1982 assessment, (3) the oversight performed by USAID/Haiti
Health officials, (4) performance measures, and (5) actual performance results. We also
conducted interviews with key USAID/Haiti personnel, the main implementing partner,
and beneficiaries. We conducted the audit at USAID/Haiti, located in Port-au-Prince,
Haiti, visited implementing partners and beneficiaries located in Port-au-Prince and
Petion-Ville, and conducted site visits in Port de Paix, Fort Liberte, Cap Haitien, Pignon,
Carrefour, and Pierre Payen.

We reviewed the main program indicator stating the number of patients on antiretroviral
(ARV) therapy included in the fiscal year 2007 COP as well as the indicator for number
people tested for HIV/AIDS. The main implementing partner is the Partnership.

Methodology
To answer the audit objective, we reviewed the fiscal year 2007 COP’s planned and
actual results for the number of patients on ARV therapy and number of people tested.

We validated performance results and compared reported information to documented
results (progress reports from contractors) for the indicators in order to verify the
mission’s determination of the project’s performance.

We reviewed applicable laws and regulations, and USAID policies and procedures
pertaining to PEPFAR including the following: the mission’s 2007 Federal Managers’
Financial Integrity Act of 1982 assessment; storage protocols from the World Health


                                                                                        17
                                                                                APPENDIX I

Organization; Guidelines For Managing The HIV/AIDS Supply Chain by a principal
partner of the Partnership; storage requirements for HIV/AIDS commodities with regards
to temperature; and Automated Directives System chapter 203 titled Assessing and
Learning.

We interviewed USAID/Haiti officials, Center for Disease Control officials, the main
implementing partner, and the medical staff at sites visited. We conducted site visits to
the main warehouse that stores the commodities and the implementing partner’s offices
that are temporarily being used for cold storage. We also conducted site visits to 4 of
the 5 health facilities receiving ARV drugs from USAID financing, 5 of the 10 receiving OI
drugs, and 9 of the 27 sites receiving test kits. In total, we visited nine facilities as some
received all of the above mentioned commodities from USAID/Haiti, while others did not.
At these sites, we compared physical counts of commodities to the inventory records,
determined if stock outs and expiration of commodities had occurred, assessed the
storage conditions for compliance with World Health Organization requirements (see
appendix III), and determined the availability of power.




                                                                                           18
                                                                         APPENDIX II


MANAGEMENT COMMENTS
TO:           Timothy Cox, RIG/San Salvador

FROM:         Beth Cypser, Mission Director

DATE:         September 15, 2008

SUBJECT:      Mission Response to the Draft Audit Report of RIG’s Audit of USAID/Haiti
              procurement, deployment and warehousing of its PEPFAR commodities
              to ensure that intended results were achieved, and what has been the
              impact? (Report No. 1-521-08-00X-P).

This memorandum represents USAID/Haiti’s formal response to the draft audit report of
RIG’s Audit of USAID/Haiti procurement, deployment and warehousing of its PEPFAR
commodities to ensure that intended results were achieved, and what has been the
impact (Report No. 1-521-08-00X-P). USAID/Haiti appreciates the time and effort of the
RIG staff in carrying-out this audit and for the professional and cooperative manner in
which the audit was conducted.

General Comment:

We agree with all eight (8) recommendations provided in the audit report and believe
they will enable us to improve the overall management of the HIV/AIDS commodities
(ARVs, Opportunistic Infections drugs, Rapid Test Kits, laboratory reagents and
supplies, laboratory equipment and miscellaneous other equipment) for a greater impact
of the President’s Emergency Plan for AIDS Relief (PEPFAR) program on individuals
living and/or affected by HIV/AIDS in Haiti.

The auditors identified specific opportunities for USAID/Haiti to strengthen the
management of HIV/AIDS commodities through the Partnership for the Supply Chain
Management (The Partnership) activities. Four of the recommended actions are issues
that were identified by the Partnership, and resolution is well underway. As requested,
action plans and timeframes are developed below in order to implement all the
recommendations cited in the report in a timely manner.

Recommendation No. 1:

   We recommend that USAID/Haiti, in coordination with the Partnership for Supply
   Chain Management, develop an action plan, listing specific tasks and
   timeframes, to move the commodities to the new central warehouse.

Unexplained circumstances leading to the loss in transit of the condensing unit for the
cold room caused the delay in rendering the cold room functional. At the time of the
audit, corrective measures such as administrative procedures related to the loss
investigation, insurance claim and a replacement order for the condensing unit were
ongoing. At this time, the new condensing unit has been received and is being installed
at the central warehouse.



                                                                                    19
                                                                             APPENDIX II


The following actions are planned:

1. Installation: 18 – 29 August;

2. Testing the cold room (temperature measurements): 02 – 04 September;

3. Transfer of products: 15 - 17 September

The transfer plan provides for a complete physical inventory of the cold chain
commodities prior to transfer. Simultaneously, labels and codes will be confirmed for
those products. The transfer will be done under strict cold chain conditions and will be
allocated to their respective slots in the cold room upon arrival. A control inventory will
take place at that time by the warehouse personnel and compared to the pre-transfer
inventory. Any discrepancy will be documented and investigated.

Recommendation No. 2:

   We recommend that USAID/Haiti, in coordination with the Partnership for Supply
   Chain Management, install the necessary fire safety items at the central
   warehouse.

The smoke detectors that were being purchased at the time of the audit have been
received, installed and are currently fully functional. It was requested that the vendor
speed up the delivery of the posters and conduct a training session for the warehouse
staff.
Planned actions are:
1. Purchase and post instructions in case of fire: to be delivered before September 29;

2. Conduct a training session for the staff: during the last week of September. The
   curriculum has been developed. It will be conducted in Creole and is expected to be
   a half day session for all the warehouse personnel and a selected number of the
   office personnel.

Recommendation No. 3:

   We recommend that USAID/Haiti develop an action plan, in coordination with its
   partners, to improve the forecasting method in order to lessen the amount of
   expired commodities.

Since the Partnership started its activities, one of the main priorities for USAID and the
Partnership was the implementation of an efficient forecasting and quantification system
with emphasis first on the ARV drugs. This mission is complicated by the fact that
PEPFAR has to take into account the total country needs and not only those sites that
are supplied by PEPFAR. Historically, other partners have had difficulties in securing all
their drugs and on time. One of our main objectives is to avoid stock outs of ARVs in the
country, forcing the PEPFAR team to quantify and purchase for a larger number of
patients than those under our direct responsibility. At the opening of the Partnership
office in Haiti, a large amount of ARVs were present in the country purchased through



                                                                                        20
                                                                               APPENDIX II

the previous implementing partner. The corresponding forecasts were done based on
earlier and ambitious objectives derived from target data provided by implementing
partners without much historical data.

Until further notice, The Partnership still purchase additional drugs (up to 10%) over our
safety stock to be able to face any emergency related to other stakeholders. The same
policy applies to second line molecules to ensure their availability at a moment’s notice
when patients with adherence problems, major side effects or suspicion of resistance
need those drugs

In an effort to manage the excess stock in country at the arrival of the Partnership, ARV
drugs nearing expiration were loaned and/or donated to non-PEPFAR partners in an
amount valued at more than the amount that reached expiration.

The following action plan was developed to improve the forecasting and prevent
commodities expiration:

The strict monitoring of the supply plans and the stocks in country will enable us to
reduce the potential for drugs expiring. Through technical assistance from the
Partnership’s headquarters, the Partnership staff in Haiti was first trained in the available
tools for forecasting and supply planning such as Quantimed and Pipeline. Later on,
some members of other PEPFAR and non-PEPFAR partners were trained in using the
same tools as part of our efforts to build local capacity.

The Partnership conducts quarterly internal updates of its forecast and supply plans, and
twice a year, a workshop is held where all partners using ARVs are invited to update the
national forecasts and supply plans.

The Partnership organigram recently included a “Forecasting and Demand Planning
Specialist” whose main role is to ensure the relevance of all quantification hypotheses
and assumptions, produce and update all forecasts and supply plans, conduct the
update workshops and track consumption data and operate all necessary adjustments.

The next update of all forecasts and supply plans is scheduled for end of September –
early October, depending on the availability of the participants. A workshop will be held
with all involved in treatment of HIV/AIDS patients including the Ministry of Health. The
Partnership will request assistance from headquarters to support the local specialist in
his first effort to conduct such a workshop.

He then should be able to conduct the next programmed workshop in April 2009. The
Partnership quarterly internal updates will continue and the updated documents will be
shared with the USG Team, the Partnership Headquarters as well as the appropriate
partners.

In the efforts to ensure regular, efficient reviews and updates of quantification, the Health
and Education office Activity Manager for The Partnership is scheduled to attend in early
October an intensive two week long training provided by John Snow, Inc. with emphasis
on Quantification and Procurement Planning. Thus, increasing her related knowledge
and skills and ability to more actively participate at the monitoring and review activities.




                                                                                          21
                                                                               APPENDIX II

Recommendation No. 4:

   We recommend that USAID/Haiti destroy expired products in a timely manner.

The ordered incinerator has arrived, has been installed and is ready for use. The
Partnership will start regular incinerations upon receipt of the approval of the Mission
Environmental Officer (MEO) which is pending some prerequisite activities (such as staff
training, incinerator operating manual translation, etc.), and the first demonstration test is
scheduled for early September.

Due to the volume of the drugs, the incineration will be one of the methods used to
dispose of the existing expired drugs. The Partnership is envisaging three methods so
far: incineration for the largest majority of commodities; cement mix for the liquid
formulation; and burial and cement for a small percentage. All these methods are part of
the approved standard methods and are part of the newly developed national norms.
The Partnership already shared with the Mission the national norms available at this time
and related to acceptable methods by the local government of disposal of expired drugs.
The Partnership with guidance and written authorization of the MEO will use those
methods that are deemed acceptable and safe to destroy the various types of drugs.

Planned follow-up actions are:

1. Testing of the incinerator: o/a September 12;

2. Authorization for the acceptable methods of destruction by type of drug: early
   September.

3. Destruction of expired drugs: o/a September 15 – November 30. This time line can
   vary based on the volume that needs to be incinerated versus the other methods.
   Due to volume / weight and the number of incinerations that can be conducted in a
   day.

Recommendation No. 5:

   We recommend that USAID/Haiti in coordination with its partners, develop an
   action plan to improve the supply pipeline specifically with regard to OraQuick, or
   another confirmatory test not requiring cold storage, in order to lessen the
   amount of stock outs for this product.

OraQuick is used as a confirmatory test at the sites that lack the ability to maintain cold
chain products. The manufacturer recommends storage at a wide temperature range,
from 2°C to 27°C.

The test is manufactured mainly in Thailand and has a maximum shelf life of six months.
With the manufacturing cycles and the transportation challenges, OraQuick is received
usually in country with two to four months maximum of shelf life, which create
opportunities for expiration and/or stock outs.

In order to improve the OraQuick supply pipeline, The Partnership has recently started
importing the test from the USA. This solves part of the logistics problems associated



                                                                                           22
                                                                           APPENDIX II

with transportation and providing with a longer shelf life closer to the four months than
the lower limit when received in country. As a new initiative, we expect to gain about
20% additional shelf life on arrival, data to be confirmed after multiple orders.

We are looking into alternatives of similar confirmatory tests that do not require
refrigeration but have longer shelf life.

Also, we will continue on improving the sites capacity by providing them with cold chain
equipment such as propane powered refrigerators. The economy derived from the price
difference between the two current tests (OraQuick $3.50, Capillus $1.60) can create
enough resources to purchase and maintain the necessary equipment for over thirty
sites every year.

There is no timeline associated with this action plan. During the COP09 preparations, we
will discuss the issue with all partners as to what next steps will be required. We will
continue to purchase the OraQuick as part of the Rapid Test Kits for the Haiti program
until a decision is taken in collaboration with the Ministry of Health.

Recommendation No. 6:

   We recommend that USAID/Haiti in coordination with the Partnership for Supply
   Chain Management, develop an action plan listing specific tasks and timeframes,
   to finalize and implement a performance monitoring plan for the PEPFAR
   program in Haiti.

At the time of the audit, USAID had already received the Monitoring and Evaluation Plan
of the Partnership and provided them with comments.

A revised version was submitted in August for review. That version is more complete
and takes into consideration the earlier remarks. It was shared with the USG Team
(which includes CDC) for final comments and/or approval to be provided on/around
September 19. The approved version will be reviewed in November to reflect any
additional or new directives from the USG Team.

Recommendation No. 7 & 8:

   We recommend that USAID/Haiti revise its memorandum of understanding with
   the Global Fund to spell out the conditions and responsibilities of each party for
   loans and donations of commodities.

   We recommend that USAID/Haiti establish an internal policy that requires
   estimates for loans of PEPFAR program commodities be reported in the budgets
   and the actual loans and repayments to stakeholders in Washington.

One of the commitments of the USG Team in Haiti is to take all necessary actions to
ensure that all patients in Haiti receive their ARVs in a timely manner and avoiding any
stock outs of all drugs used in the approved national regimen.

The Partnership is an active partner in that commitment ensuring the availability of the
required drugs for the PEPFAR program and also through the decided strategy of loans


                                                                                        23
                                                                                APPENDIX II

and donations. This strategy has been implemented as a response to a perceived need
where other stakeholders are facing procurement/ shipping/ availability issues of ARV
drugs.

PEPFAR has intervened in practically all such occurrences and avoided interruption of
services to the patients. As an ongoing policy, we are still including an additional 10%
buffer stock in our ARV drugs procurement. As the national system “matures” and
proves its capacity to handle all the needs required from other stakeholders, this
percentage will be gradually reduced until totally eliminated.

All loans or/and donations are made with USAID’s written approval. As part of actual
HIV/AIDS commodities management, The Partnership is tracking all donations and loans
by partner, product and date as well as the information on returned loans. The following
list of conditions once presented and discussed with the concerned stakeholders should
regulate the donations and loans of PEPFAR funded commodities under the Partnership
management.

Donations:

ARV drugs can be donated:

•   If they have less than four months shelf life;
•   If they have a low economic value (i.e. less than $10,000);
•   If partner / stakeholder need of those products has been established by the USG
    Team;
•   If USAID provides The Partnership with formal authorization to donate the drugs;
•   The donations will be accounted for at replacement value. This amount will be
    reported to USAID.

Loans:

Once the need has been established and authorized by USAID, The Partnership can
proceed with providing the loan.

•   Only ARVs can be loaned and in some exceptional situations, Rapid Test kits;
•   Response to the request is based on availability of products without jeopardizing The
    Partnership’s stock and its ability to respond to its needs;
•   Response only in situations where the partners are experiencing delays in receiving
    their own drugs from their suppliers;
•   Loans should be returned immediately after the partner receives his own stock with
    an interval not to exceed three to six months from loan date;
•   Returned drugs should be part of the FDA approved or tentatively approved ARVs;
•   Quantities returned should be equivalent in quantity of active ingredients loaned;
•   The quantities returned should have enough shelf life remaining to be used within the
    time frame of that shelf life by the Partnership’s sites. If not, The Partnership will only
    accept the usable fraction and will return any excess balance. The Partnership will
    request a subsequent delivery of that portion corresponding to all established criteria;
•   The accounting of all loans should be done at purchase price and once returned,
    should be logged in at the same value.



                                                                                            24
                                                                          APPENDIX II


1. Listed above conditions to be sent to Sogebank Foundation: 19 September
2. Response from Sogebank Foundation : 30 September;
3. Integration in MOU between PEPFAR/FSGB: October 17.

In closing, we would like again to express our appreciation for the professional manner
in which the audit was conducted. The initiative of listing in advance the documentation
needed and the sites that would be visited during the exercise contributed to a smoother
implementation of the agenda. Since logistics and security requirements were addressed
in advance, the auditors and the USG Team could better focus on discussions,
interviews, and sites visits.

Furthermore, the RIG Audit has been a good opportunity for the USG Team and The
Partnership to receive clear and to the point recommendations that will help us improve
our services and contribute even more to the reduction of HIV/AIDS and its
consequences on whole populations by continuing to provide quality medicines to the
people living with and affected by this epidemic.




                                                                                     25
                                                                        APPENDIX III


     STORAGE CONDITIONS
          TESTED
No                                     Description
 1   Storage area is secured with a lock and key, but is accessible during normal
     working hours; access is limited to authorized personnel.

2    Products that are ready for distribution are arranged so that identification
     labels and expiry dates and/or manufacturing dates are visible.

3    Items stored according to instructions on carton, including arrows pointing up.

4    Products are stored and organized in a manner accessible for first-to-expire,
     first-out (FEFO) counting and general management.

5    Storeroom is maintained in good condition (clean, all trash removed, sturdy
     shelves, organized boxes, no insecticides, chemicals, old files, etc.).

6    The current space and organization is sufficient for existing products and
     reasonable expansion (i.e., receipt of expected product deliveries for
     foreseeable future).
7    Cartons and products are in good condition, not crushed due to mishandling.
     If cartons are open, determine if products are wet or cracked due to
     heat/radiation.
8    The facility makes it a practice to separate damaged and/or expired products
     from usable products and removes them from inventory.

9    Products are protected from direct sunlight.

10   Cartons and products are protected from water and humidity. (i.e. there is no
     evidence of water damage?)

11   Storage area is visually free from harmful insects and rodents, termites, etc.
     (Check the storage area for traces of rodents [droppings or insects].)
12   Determine whether storage room is cleaned and disinfected regularly.

13   Products are stored at the appropriate temperature according to product
     temperature specifications (Most ARVs require storage below 25-27C.
     Lopinavir/ritonavir capsules and Stavudine oral suspension after
     reconstitution require refrigeration between 2 - 8 C.

14   Does the air conditioner work? Are there power outages? Is there a backup
     generator, cylindered gas or kerosene-powered refrigeration?



                                                                                    26
                                                                       APPENDIX III

     Roof is always maintained in good condition to avoid sunlight and water
15   penetration. Any evidence of leakage
16   Products are stacked at least 10 cm off the floor. Ask whether the area floods.

17   Products are stacked at least 30 cm away from the walls and other stacks.
18   Products are stacked no more than 2.5 meters high.
19   Ask staff what they do in case of a fire. Is fire safety equipment available and
     accessible (any item identified as being used to promote fire safety should be
     considered including fire extinguisher and sand or soil in a bucket).


20   Package and product integrity - check for damage to packaging (tears,
     perforations, water or oil) and products (broken or crumbled tablets, broken
     bottles).
21   Manufacturing defects: incomplete supply, missing or illegible identification
     information.
22   Labeling - make sure products are labeled with the date of manufacture or
     expiration, lot number and manufacturer's name.




                                                                                     27
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave., NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
